           COMPILING AND REPORTING FY 1999
    DEPARTMENT OF THE NAVY WORKING CAPTAL FUND
         INTRAGOVERNMENTAL TRANSACTIONS

Report No. D-2000-144                          June 09, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
IG                    Inspector General
OMB                   Office of Management and Budget
USD(Comptroller)      Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2000-144                                                          June 9, 2000
 (Project No. D2000FC-0045.003)

        Compiling and Reporting FY 1999 Department of the Navy
         Working Capital Fund Intragovernmental Transactions

                                  Executive Summary

Introduction. We conducted this audit in support of our annual audit of the DoD
Agency-wide financial statements for FY 1999, as required by the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994.
This report is the third report in a series on the Department of the Navy (Navy)
Working Capital Fund financial statements. During FY 1999, the Navy Working
Capital Fund reported $23.4 billion in assets, $5.5 billion in liabilities, $17.9 billion in
net position, and $21.8 billion in intragovernmental transactions. Intragovernmental
transactions are transactions that occur within and among DoD Components and
agencies, and the Federal Government. Intragovernmental transactions should be
identified or eliminated, as appropriate, when an entity prepares consolidated financial
statements.

Objectives. The audit objective was to determine whether the Defense Finance and
Accounting Service Cleveland Center consistently and accurately compiled and reported
intragovernmental transactions for the FY 1999 Navy Working Capital Fund financial
statements. We also reviewed the Defense Finance and Accounting Service Cleveland
Center management control program as it related to our objective.

Results. The Defense Finance and Accounting Service Cleveland Center made a
commendable effort in identifying and reporting $21.8 billion in intragovernmental
transactions for the FY 1999 Navy Working Capital Fund financial statements in
accordance with Office of Management and Budget requirements. However, the
intragovernmental transactions of $21.8 billion reported in the Navy financial
statements were inaccurate and unreliable. The Cleveland Center did not have
complete audit trails for seven adjustments, totaling $16.2 billion, of the eight
adjustments made to the departmental level general ledger accounts. Also, the
Cleveland Center did not fully disclose the reason for allocating the entire $213 million
in undistributed collections. In addition, the Cleveland Center did not explain the
reasons for allocating the $405 million in accounts receivable and $70 million in
unearned revenue to 29 Navy Industrial Fund organizations in the notes to the financial
statements. As a result, the FY 1999 financial statements of the Navy Working Capital
Fund were subject to misstatement and could not be relied on to be a complete and
accurate representation of financial reporting. The FY 1999 DoD Agency-wide
financial statements were also similarly affected.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) finalize draft policy guidance on how the finance and accounting centers
should accumulate and report intragovernmental transactions. We also recommend that
the Director, Defense Finance and Accounting Service Cleveland Center, maintain
audit trails for all intragovernmental accounts receivable, revenue, and unearned
revenue obtained from other trading partners for all levels; reconcile seller-side and
buyer-side information; and document procedures used to collect, verify, and report
intragovernmental transactions.

Management Comments. The Under Secretary of Defense (Comptroller) partially
concurred with the recommendations in a combined response for his office and the
Defense Finance and Accounting Service. The comments emphasized that
identification and elimination of intragovernmental transactions is a Government-wide
problem, additional Government-wide guidance is needed, and DoD financial systems
are not capable of producing the required information to properly eliminate
intragovernmental transactions. Given the large number of intragovernmental
transactions, relying on “after-the-fact” reconciliations is not feasible. Until adequate
accounting systems are in place and more detailed Government-wide guidance is issued,
DoD plans to issue interim procedures allowing the use of estimates based on
percentage allocations of summary balances. New interim policy and procedural
guidance will be included in the DoD form and content guidance for audited financial
statements in DoD Regulation 7000.14-R to aid in the elimination of intragovernmental
balances.

In regard to the recommendations to the Defense Finance and Accounting Service, the
Under Secretary of Defense (Comptroller) stated that DoD will implement interim
policies and procedures to provide a “meaning approximation” of intragovernmental
transactions. The policies are to address the existence of audit trails, data integrity,
accuracy, and management controls. The Defense Finance and Accounting Service is
working on implementation strategies to better ensure that journal vouchers are
properly supported. See the Finding section for additional discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.

Audit Response. The comments from the Under Secretary of Defense (Comptroller)
are responsive concerning the active involvement of his office in interagency
workgroups to develop policy, expected issue of interim intragovernmental elimination
policy guidance to enhance the process, and the continued work to develop accounting
systems to capture the required data. However, reliability of the DoD and
Government-wide consolidated financial statements will be adversely affected until
intragovernmental transactions can be identified and eliminated, as required by the
Office of Management and Budget.
The Under Secretary of Defense (Comptroller) did not comment on the
recommendation to disclose unreconciled amounts in the notes to the financial
statements. We request the Under Secretary provide additional comments on that
recommendation. Also, the comments did not specify the actions to be taken on the
recommendations to the Defense Finance and Accounting Service Cleveland Center.
Therefore, we request the Under Secretary of Defense (Comptroller) and the Director,
Defense Finance and Accounting Service, provide comments on the final report by
August 9, 2000.




                                            ii
Table of Contents

Executive Summary                                i

Introduction
     Background                                 1
     Objectives                                 2

Finding
     Intragovernmental Transactions             3

Appendixes
     A. Audit Process
         Scope                                  15
         Methodology                            16
         Management Control Program             16
         Prior Coverage                         17
     B. Report Distribution                     18

Management Comments
     Under Secretary of Defense (Comptroller)   21
Background
           Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15,
           1990, as amended by Public Law 103-356, the “Federal Financial Management
           Act of 1994,” October 13, 1994, requires DoD to submit to the Office of
           Management and Budget (OMB) annual financial statements that have been
           audited by the Inspector General (IG), DoD. This report is the third in a series
           of reports related to the FY 1999 Department of the Navy1 Working Capital
           Fund financial statements. This report discusses the reliability and effectiveness
           of the policies and procedures used to report intragovernmental transaction
           information for FY 1999 Navy Working Capital Fund financial statements.

           Accounting Functions and Responsibilities. The Defense Finance and
           Accounting Service (DFAS) Cleveland Center provides finance and accounting
           support to the Navy Working Capital Fund.2 Each month, DFAS Cleveland
           Center receives financial information in various forms from Navy Working
           Capital Fund field organizations and records the data into the central database
           accounting system. The DFAS Cleveland Center consolidates the financial data
           for each activity group and prepares both the monthly reports and annual
           financial statements for the Navy Working Capital Fund. The FY 1999 Navy
           Working Capital Fund financial statements reported assets of $23.4 billion,
           liabilities of $5.5 billion, and a net position of $17.9 billion.

           Transactions Requiring Elimination. Intragovernmental transactions are
           transactions that occur within and among DoD Components and agencies, and
           the Federal Government. When an entity prepares consolidated financial
           statements, it should eliminate the effect of financial transactions among its
           components and should report only transactions with outside parties. The Navy
           Working Capital Fund organizations are routinely involved in transactions
           involving sales and purchases of materials and services with other Navy General
           Fund and Working Capital Fund organizations, DoD Components, and other
           Federal agencies. When those kinds of transactions occur, the transactions are
           to be closed, and when appropriate, eliminated from the various levels of
           financial statements. With regard to sales of goods or services between Federal
           entities, there are three levels of intragovernmental transactions, which must be
           identified:

                 •   Level 1: Transactions involve sales between DoD and other Federal
                     agencies, such as between the Navy and the Department of Commerce.

                 •   Level 2: Transactions involve sales between DoD reporting entities,
                     such as between the Navy Working Capital Fund and the Navy General
                     Fund.

1
    The Department of the Navy includes both the Navy and Marine Corps. However, in this report, the
    term “Navy” will refer to the Department of the Navy.
2
    The Navy Working Capital Fund consists of 9 activity groups: 7 Industrial Fund activity groups
    composed of 48 organizations, the Marine Corps, and Supply Management.

                                                      1
         •   Level 3: Transactions involve sales between components of the DoD
             financial reporting entities, such as between the Navy Working Capital
             Fund Supply Management and the Navy Working Capital Fund Depot
             Maintenance.

     During FY 1999, DFAS Cleveland Center identified $21.8 billion in
     intragovernmental transactions for levels 1, 2, and 3. Of the $21.8 billion,
     $357.7 million in receivables, $441.6 million in unearned revenue, and
     $2.6 billion in revenue were eliminated from the FY 1999 Navy Working
     Capital Fund financial statements.



Objectives
     The audit objective was to determine whether DFAS Cleveland Center
     consistently and accurately compiled and reported intragovernmental
     transactions for the FY 1999 Navy Working Capital Fund financial statements.
     We also reviewed the DFAS Cleveland Center management control program as
     it related to our objective. Appendix A discusses the audit scope and
     methodology and our review of the management control program.




                                         2
           Intragovernmental Transactions
           The DFAS Cleveland Center was able to identify and report
           $21.8 billion in intragovernmental transactions for the FY 1999 Navy
           Working Capital Fund financial statements in accordance with the OMB
           requirement. However, the reported intragovernmental transactions
           were inaccurate and unreliable. The Cleveland Center did not have
           complete audit trails for seven adjustments, totaling $16.2 billion, of the
           eight adjustments made to the departmental level general ledger
           accounts. Also, DFAS Cleveland Center did not fully disclose the
           reason for allocating the entire $213 million in undistributed collections
           to level 3. In addition, the Cleveland Center did not disclose the reason
           for allocating the entire $405 million in accounts receivable and
           $70 million in unearned revenue to 29 Navy Industrial Fund
           organizations in the notes to the financial statements. The reported
           intragovernmental transactions were inaccurate and unreliable because
           DFAS Cleveland Center and other DoD accounting offices did not have
           adequate financial management systems for compiling adequate financial
           data, and the Under Secretary of Defense (Comptroller)
           (USD[Comptroller]) did not develop and issue effective guidance in a
           timely manner to compensate for the limitations in current DoD
           accounting systems. Also, many Navy Industrial Fund organizations did
           not comply with the DFAS Cleveland Center requirement to expand the
           summary source of revenue to include accounts receivable and unearned
           revenue. Also, the conditions occurred because DFAS Cleveland Center
           did not do the following:

              •   establish the management controls needed to ensure that the
                  process used to accumulate, adjust, and report intragovernmemtal
                  transactions was thoroughly documented and fully complied with
                  DoD Regulation 7000.14-R, “Financial Management
                  Regulation”; and

              •   fully implement interim guidance for identifying and reporting
                  intragovernmental transactions when compiling information for
                  the intragovernmental transactions.

           As a result, the FY 1999 financial statements for the Navy were subject
           to misstatement and could not be relied on to be a complete and accurate
           presentation of financial reporting. The FY 1999 DoD Agency-wide
           consolidated financial statements were also similarly affected.


Guidance for Reporting Intragovernmental Transactions
    OMB Guidance. OMB Bulletin No. 97-01, “Form and Content of Agency
    Financial Statements,” October 16, 1996, amended on November 20, 1998,
    requires agencies to show intra-entity eliminations for FY 1999. The
    amendment to the policy was in effect for the FY 1999 consolidated financial

                                        3
statements of the United States and all DoD financial statements. Additionally,
Technical Amendment to OBM Bulletin 97-01, January 7, 2000, requires
reporting entities to reconcile intragovernmental asset, liability, and revenue
amounts reported in the required supplementary information with their trading
partners at least annually as of the end of each fiscal year.

DoD Guidance. To implement the OMB reporting requirements, each fiscal
year, DoD develops and issues policy for the Military Departments and Defense
agencies to implement in preparing their financial statements. Because of the
systemic problems in the DoD accounting and financial management systems,
DoD Regulation 7000.14-R, volume 6B, “Form and Content of the Department
of Defense Audited Financial Statements,” is updated annually to reflect the
progress made to DoD current accounting systems. For FY 1999, volume 6B
was updated in October 1999. However, the implementation guidance on
intragovernmental transactions was not included in volume 6B. In November
1999, the USD(Comptroller) issued draft guidance on intragovernmental
transactions. However the draft guidance was not finalized prior to issuance of
this audit report.

DFAS Interim Guidance. DFAS published a draft of chapter 13 to volume 6B,
DoD Regulation 7000.14-R, on August 31, 1999 (hereafter referred to as DFAS
interim guidance). The DFAS interim guidance was issued as a result of the
recommendation we made in IG, DoD, Report No. 98-204, “Reporting and
Disclosing Intragovernmental Transactions for the FY 1997 DoD Consolidated
Financial Statements,” September 21, 1998, and the Naval Audit Service
Report No. 048-99, “Fiscal Year 1998 Department of the Navy Principal
Statements and Working Capital Fund Consolidated Financial Statements
Eliminating Entries,” July 22, 1999.

The guidance requires that DoD accounting centers and DoD Components work
internally, and with their customers, to extract seller-side information from their
intragovernmental (DoD and non-DoD) trading partners because DoD presumed
that the amounts of intragovernmental accounts receivable, revenue, and
unearned revenue reported by the seller are correct. Furthermore, the guidance
states that specific seller–side intragovernmental balances should be exchanged
and compared with summary buyer-side data at the appropriation or Defense
Working Capital Fund business-area level in an effort to review and adjust
intragovernmental activity and prepare annual financial statements that eliminate
the effect of intra-entity transactions. Because the Under Secretary of Defense
(comptroller) had not finalized its draft guidance, DFAS Headquarters instructed
all the DFAS centers to use the DFAS interim guidance to accumulate and
report FY 1999 intragovernmental transactions.




                                     4
Processing Intragovernmental Transactions
    Table 1 shows a breakout of intragovernmental data shown in worksheets
    prepared by DFAS Cleveland Center for the Navy Working Capital Fund.


                      Table 1. Summary of Seller Data Used for
                          Intragovernmental Transactions
                                 (dollars in thousands)

     Elimination         Accounts                         Unearned
     Level              Receivable          Revenue        Revenue           Total

     Level 1             $ 69,742      $ 638,014          $ 95,119     $ 802,875
     Level 2              395,864       16,829,521         324,766      17,550,151
     Level 3              357,688        2,627,658         441,596       3,426,942
      Total              $823,294      $20,095,193        $861,481     $21,779,968


    However, the process that DFAS Cleveland Center used to account for the
    $21.8 billion in intragovernmental transactions did not accurately identify and
    eliminate the effects of all intragovernmental transactions that occurred within
    and among Navy Working Capital Fund organizations, DoD, and other Federal
    agencies.

    Adjusting to the Seller Records. Because of the lack of reliable accounting
    and financial information, DFAS Cleveland Center was unable to use the data in
    the departmental level general ledger accounts as a source for accumulating,
    eliminating, and reporting intragovernmental transactions. Instead, DFAS
    Cleveland Center used the seller information on accounts receivable, revenue,
    and unearned revenue as a basis for reporting intragovernmental transactions.
    However, using the sellers’ information to report intragovernmental transactions
    resulted in a series of adjustments because the amounts recorded for accounts
    receivable, revenue, and unearned revenue in the sellers’ records differed from
    the amounts recorded in the departmental level general ledger accounts. For
    example, DFAS Cleveland Center had to make eight adjustments to the
    departmental level general ledger accounts totaling $16.4 billion to match the
    buyers’ records to the sellers’ records.

    Audit Trails for Intragovernmental Transactions. The DFAS Cleveland
    Center did not have complete audit trails for the $21.8 billion in intra-
    governmental transactions reported in the FY 1999 Navy Working Capital Fund
    consolidated financial statements. The lack of complete audit trails occurred
    largely because DFAS interim guidance did not require DoD accounting centers
    and DoD Components to reconcile seller-side and buyer-side information. DoD
    Regulation 7000.14-R, volume 1, “General Financial Management Information,
    Systems and Requirements,” June 1999, chapter 3, requires that audit trails


                                        5
    including documentation be maintained so that auditors can ensure that
    transactions are properly accumulated, classified, coded, and recorded in all
    affected accounts and later reported in the proper financial statements. DFAS
    Cleveland Center adjusted the buyers’ general ledger accounts to match the
    sellers’ records without proper research and reconciliation to determine the
    reasons for the differences and did not always obtain complete information from
    the sellers for levels 1, 2, and 3. Examples follow.

        •   DoD Regulation 7000.14-R, volume 6B, chapter 4, states that accounts
            receivable is the amount that the Federal entity claims for payment from
            other Federal organizations net of undistributed collections. To comply
            with guidance, DFAS Cleveland Center reduced accounts receivable by
            $213 million. However, because the departmental level general ledger
            accounts did not have detailed information that would enable accounting
            personnel to properly allocate the $213 million in undistributed
            collections to each level, DFAS Cleveland Center decided to allocate the
            entire $213 million in undistributed collections to level 3.

        •   DFAS interim guidance requires that the DoD accounting centers and
            DoD Components work internally, and with their customers, to extract
            seller-side information from their intragovernmental (DoD and non-
            DoD) trading partners. The guidance does not require the centers to
            reconcile seller-side and buyer-side information because it presumed
            that the amounts of intragovernmental accounts receivable, revenue, and
            unearned revenue that the seller reported were correct. To comply with
            the guidance, DFAS Cleveland Center requested Navy organizations to
            modify their Summary Source of Revenue report to include accounts
            receivable, revenue, and unearned revenue. However, 60 percent of the
            Navy organizations did not submit information for accounts receivable
            and unearned revenue totaling $405 million and $70 million,
            respectively. Accordingly, DFAS Cleveland Center decided to allocate
            the entire amounts of accounts receivable and unearned revenue
            reported in the general ledger to level 3.

    As a result, the portion of $213 million of undistributed collections,
    $405 million of accounts receivable, and $70 million of unearned revenue were
    overstated for level 3 and understated for levels 1 and 2.


Reasons for Unreliable Reporting of Intragovernmental
Transactions
    The lack of adequate financial management systems to accurately accumulate
    and report financial information was the primary cause of unreliable
    intragovernmental transactions. Also, the lack of policy guidance by DoD and
    the inability to comply with DFAS interim guidance contributed to the
    unreliability of reported intragovernmental transactions.



                                       6
Reliability of Accounting and Financial Management Systems. DoD
Regulation 7000.14-R, volume 1, states that DFAS is to maintain and operate a
central double-entry general ledger. The central double-entry general ledger
and its subsidiary ledgers and reports serve as the source database for producing
financial statements for Military Departments and Defense agencies. However,
prior audit reports show that DoD financial accounting systems are not fully
compliant with regulatory and statutory requirements. For example, IG, DoD,
Report No. D-2000-041, “Deficiencies in FY 1998 DoD Financial Statements
and Progress Toward Improved Financial Reporting,” November 26, 1999,
states that we continued to identify and report deficiencies that prevented
favorable audit opinions on DoD financial statements. Favorable audit opinions
were not possible because of the lack of adequate general ledger accounting
control systems for compiling accurate and reliable financial data. The report
also states that until DoD deploys financial management systems that comply
with the Chief Financial Officers Act of 1990 and the Federal Financial
Management Improvement Act of 1996, we will not be able to perform
sufficient audit work to render favorable audit opinions on the DoD financial
statements.

Interim Policy and Procedures. The USD(Comptroller) did not promptly issue
detailed guidance to enable the Military Departments, Defense agencies, and
DFAS to identify or eliminate, as appropriate, the effects of all
intragovernmental transactions that occurred within and among Working Capital
Fund organizations, DoD, and other Federal agencies. When issued, the
guidance was not adequate.

            Timeliness of the Guidance. The DoD did not always promptly
issue detailed policy guidance to compensate for known systemic problems.
Naval Audit Service Report No. 048-99, “Fiscal Year 1998 Department of the
Navy Principal Statements and Working Capital Fund Consolidated Financial
Statements Eliminating Entries,” July 22, 1999, recommended that
USD(Comptroller) and the Director, DFAS, provide detailed specific guidance
for eliminating intragovernmental transactions to ensure consistency and
completeness of financial statement reporting and disclosing. The
USD(Comptroller) and the Director, DFAS, concurred with the
recommendation. However, “Form and Content of the Department of Defense
Audited Financial Statements” was not finalized until October 1999, and
guidance on intragovernmental transactions was not finalized before the
FY 1999 financial statements were issued.

            Adequacy of the Guidance. Because the Under Secretary of
Defense (Comptroller) had not finalized its draft guidance, DFAS Headquarters
instructed all DFAS centers to use DFAS interim guidance to accumulate and
report FY 1999 intragovernmental transactions. However, DFAS interim
guidance did not provide sufficient detailed guidance to enable the Military
Departments, Defense agencies, and DFAS to identify and eliminate the effects
of all intragovernmental transactions that occurred within and among Working
Capital Fund organizations, DoD, and other Federal agencies. The guidance
requires that the buyers’ records for intragovernmental accounts receivable,
revenue, and unearned revenue be adjusted to match the sellers’ records because
DoD presumed that the seller-side information is more complete and reliable


                                    7
than the buyer-side information. Accordingly, the guidance does not require
DFAS to reconcile seller-side and buyer-side information. That practice is
contradictory with DoD Regulation 7000.14-R, volume 1, which requires that
audit trails including documentation be maintained so that auditors can ensure
that the transactions are properly accumulated, classified, coded, and recorded
in all affected accounts and later reported in the proper financial statements.

Information Provided to DFAS Cleveland Center. The DFAS Cleveland
Center requested the 48 Navy Industrial Fund organizations to modify the report
to include accounts receivable, revenue, and unearned revenue for all levels
because the central database and the organizations’ monthly general ledgers did
not contain such detailed information. Our review showed that 60 percent of
Navy Industrial Fund organizations did not provide DFAS Cleveland Center
with the requested information. Of the 48 Navy Industrial Fund organizations,
19 organizations (40 percent), provided detailed information that enabled DFAS
Cleveland Center to identify intragovernmental transactions for levels 1, 2, and
3 for accounts receivable, revenue, and unearned revenue. The remaining 29
organizations (60 percent), provided the information for revenue only.
Accordingly, DFAS Cleveland Center had to use the central database or the
organizations’ monthly general ledgers to identify their accounts receivable and
unearned revenue and allocated the entire amounts to level 3. Using monthly
general ledgers resulted in overstating accounts receivable and unearned revenue
for level 3, and understating accounts receivable and unearned revenue for
levels 1 and 2 by the corresponding amounts.

We calculated unallocated accounts receivable and unearned revenue for
levels 1, 2, and 3 by applying the ratio of revenues, which was reported by all
48 organizations, to the 29 organizations that did not report accounts receivable
and unearned revenue. Our calculation showed that accounts receivable and
unearned revenue may have been overstated by an estimated $352.4 million and
$60.7 million for level 3, respectively. Table 2 shows the summary of revenue
data for level 3 reported by the organizations and the estimated overstated
amounts for level 3 for accounts receivable and unearned revenue.




                                    8
                   Table 2. Summary of Revenue Data for Level 3
             Reported by the Organizations and Estimated Overstatements
                                (dollars in thousands)

                                      No. of        Accounts                  Unearned
    Description                    Organizations   Receivable       Revenue    Revenue

    General ledger                                  $427,005    $1,859,719    $441,596

    Complete summary source
      of revenue                        19            21,988        816,254    371,817
    Incomplete summary source
      of revenue                        29                 0     1,043,465           0
       Total                            48            21,988     1,859,719     371,817
    Not reported in summary
     source of revenue                  29           405,017              0     69,779
    Estimated amount that should
      have been reported                29            52,652              0      9,071
    Estimated overstatement                         $352,365    $         0   $ 60,708



Management Control Structure
    DFAS Cleveland Center accounting personnel made a commendable effort in
    identifying and reporting $21.8 billion in intragovernmatal transactions as
    required by OMB. However, additional improvements in the management
    control program would improve that the process used to collect and report
    intragovernmental transactions until DoD accounting systems are able to
    automatically identify and collect, and report required information on
    intragovernmental transactions.
    Documentation of Methodology. The DFAS Cleveland Center did not
    adequately document the procedures and methodologies used to accumulate,
    prepare, and report intragovernmental transactions for the FY 1999 Navy
    Working Capital Fund consolidated financial statements. General Accounting
    Office, “Standard for Internal Control in the Federal Government,”
    November 1999, requires that all transactions and other significant events be
    clearly documented, and the documentation should be readily available for
    examination. Because DFAS Cleveland Center did not adequately document
    procedures for preparing and presenting intragovernmental transactions,
    accounting personnel provided verbal explanations based on their best
    recollections on how reported balances were computed. In view of the new
    reporting of intragovernmental transactions required by OMB, DFAS Cleveland
    Center must develop standard operating procedures to guide accounting
    personnel in accumulating and reporting intragovernmental transactions. Also,
    without formal standard operating procedures, DFAS managers and auditors



                                             9
cannot effectively examine and monitor the process to determine whether all
significant transactions were performed in accordance with the standards.

Accuracy Testing. DFAS interim guidance requires DoD accounting centers
and DoD Components to work internally and with their customers to ensure that
the data that the sellers provided for accounts receivable, revenue, and unearned
revenue are complete and accurate. Our review showed that DFAS Cleveland
Center did not review the information received for accuracy because it believed
that such responsibility rested on the DoD Components and not DFAS
Cleveland Center. Accordingly, DFAS Cleveland Center did not establish
management controls to examine and test the information obtained from the
Navy organizations. However, OMB Circular No. A-123 as Revised,
“Management Accountability and Control,” June 21, 1995, requires that agency
managers use sources of information such as Inspector General and Government
Accounting Office reports, including audits, inspections, reviews, or audits of
financial statements conducted pursuant to the Chief Financial Officers Act to
continuously monitor and improve the effectiveness of management control
associated with their program.

We realize that DFAS Cleveland Center is not responsible for the quality of data
received from feeder systems generated by the sellers, but it should make an
effort to identify erroneous data and attempt to improve the quality of the data.
To accurately and completely identify and report all intragovernmental
transactions, DFAS Cleveland Center needs to establish procedures to randomly
check the information received to ensure that the data were free of material
misstatements. Prior audits that the Military Department audit services
performed showed that financial information produced by other services was not
always reliable. For example, Army Audit Agency Report No. AA 99-255,
“FY 1998 Financial Statements Significant Matters, U.S. Army Corps of
Engineers, Civil Works,” June 2, 1999, states that accounts receivable reported
by the Corps of Engineers were not complete, and accounts payable totaling
more than $20 million were not supported by corresponding intra-Corps
accounts receivable.

Exchanging the Seller Data With Other Trading Partners. The DFAS
Cleveland Center did not exchange the information that the sellers provided for
accounts receivable, revenue, and unearned revenue data for all levels with
other trading partners. Instead, DFAS Cleveland Center exchanged only level 2
data with other trading partners. That practice is not in compliance with DFAS
interim guidance, which requires DoD accounting centers to work with all
levels, 1, 2, and 3, to obtain their aggregate accounts receivable, revenue, and
unearned revenue and exchange the data with their trading partners.

Adjusting Entries. The DFAS Cleveland Center made eight adjustments to the
departmental level general ledger accounts, totaling $16.4 billion to match the
buyers’ records to the sellers’ records. Of the eight adjustments, seven, totaling
$16.2 billion, were not prepared in accordance with DoD Regulation
7000.14-R, volume 1, which states that the financial transactions on accounting
system processes must be adequately supported with pertinent source
documents. The adjustments were made because DoD presumed that the data
received from the sellers for accounts receivable, revenue, and unearned
                                    10
     revenue were more reliable. Accordingly, DFAS Cleveland Center did not
     perform reconciliation or document the reason for the variance. Also, at least
     four adjustments, totaling $11.7 billion, were not made in accordance with the
     DFAS interim guidance because certain proprietary and budgetary accounts
     were omitted from the adjustments. For example, DFAS Cleveland Center
     reclassified $8.8 billion in operating expenses between “Public” and
     “Government” for the proprietary accounts, but did not make a corresponding
     entry in the budgetary accounts as required by DFAS interim guidance.



Additional Disclosures
     DoD Regulation 7000.14-R, volume 6B, states that where individual line items
     of the financial statement cannot be obtained or a substitution is made from its
     requirements, the deficiencies will be explained and the reason for the
     noncompliance annotated in the footnotes. Our review showed that DFAS
     Cleveland Center did not adequately explain in the footnotes to the financial
     statements the reasons for the departures from reporting requirements of
     accounts receivable, unearned revenue, and undistributed collections. DFAS
     Cleveland Center did not disclose the reason for allocating the entire
     $213 million in undistributed collections to level 3. Also, DFAS Cleveland
     Center did not disclose the reasons for allocating the entire $405 million in
     accounts receivable and $70 million in unearned revenue to level 3 for 29 Navy
     Industrial Fund organizations as required. Additional disclosures in the
     footnotes to the financial statements would make the intragovernmental
     transactions for accounts receivable and unearned revenue more useful and fully
     compliant with DoD form and content guidance.



Conclusion
     The DFAS Cleveland Center made a commendable effort in identifying and
     reporting $21.8 billion in intragovernmental transactions for the FY 1999 Navy
     Working Capital Fund financial statements in accordance with the OMB
     requirement. However, the intragovernmental transaction amounts reported in
     the Navy consolidated financial statements were not accurate, were not reliable,
     and were of limited use. Material weaknesses in identifying and reporting
     intragovernmental transactions occurred because of the long-standing DoD
     problems with accounting and financial management reporting systems. In
     addition, material weaknesses in management controls within DFAS Cleveland
     Center were identified. USD(Comptroller) and DFAS must promptly issue
     specific guidance and implement procedures on intragovernmental transactions
     to allow sufficient time for implementation by the Military Departments and
     Defense agencies in preparing their financial statements while waiting for a
     permanent solution.



                                        11
Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Under Secretary of Defense (Comptroller)
    finalize draft policy guidance for intragovernmental transactions to ensure
    that intragovernmental transactions are accurately and consistently
    identified and eliminated. Specifically:

               a. Require DoD accounting centers and DoD Components to
    reconcile seller-side and buyer-side information and disclose the
    unreconciled amounts in the notes to the financial statements.

               b. Reemphasize the importance of gathering, reviewing, and
    exchanging information with other trading partners at all levels to ensure
    that the data that the sellers provided is complete and accurate.

               c. Issue policy guidance in a timely manner to allow sufficient
    time for the Military Departments and Defense agencies to implement the
    guidance.

    Management Comments. The USD(Comptroller) partially concurred with the
    recommendations. The USD(Comptroller) did not specifically address the
    recommendations by number. However, he stated that identification and
    elimination of intragovernmental transactions is a Government-wide problem,
    and OMB and the Department of Treasury have not issued sufficient
    Government-wide guidance to enable accurate reporting and reconciling of those
    transactions. Also, DoD financial systems are not capable of producing the
    required information to correctly eliminate intragovernmental transactions.

    Given the large number of intragovernmental transactions, relying on an after-
    the-fact reconciliation would not be feasible. DoD intends to implement
    automated processes with sufficient automated edits and controls to eliminate the
    need for after-the-fact-reconciliations. However, until the systems are in place,
    the USD(Comptroller) is in the process of issuing interim guidance that is
    “intended to result in a meaningful approximation of intragovernmental
    transaction amounts and eliminating entries.” That guidance will be issued in
    DoD Regulation 7000.14-R, volume 6B, “Form and Content of Department of
    Defense Audited Financial Statements.”

    Audit Response. The USD(Comptroller) comments were partially responsive.
    We recognize that improving Government financial management systems to
    capture adequate financial information for intragovernmental transactions needs
    a Government-wide approach and solution. However, OMB guidance requires
    reporting entities to reconcile intragovernmental amounts reported in the
    required supplementary information with their trading partners at least annually.
    The guidance also requires entities to investigate discrepancies between their
    intragovernmental account balances and the reciprocal account balances of their
    transaction partners. Until the reconciliations can be done, the notes to the
    financial statements should disclose the unreconciled amounts, and the reliability

                                        12
of the financial statements will be adversely affected. The USD(Comptroller)
did not comment on the recommendation to disclose unreconciled amounts in the
notes to the financial statements. We request that he provide additional
comments on Recommendation 1.a.

2. We recommend that the Director, Defense Finance and Accounting
Service Cleveland Center:

          a. Maintain records for audit trails in accordance with DoD
Regulation 7000.14-R, volume 1, “General Financial Management
Information, Systems and Requirements,” June 1999, for the amounts of
intragovernmental accounts receivable, revenue, and unearned revenue
obtained from the sellers for levels 1, 2, and 3.
            b. Establish followup procedures that include documenting
specific followup actions to obtain detailed summary source of revenue
reports and notification of next higher management of the Navy Working
Capital Fund organizations if the summary source of revenue reports are
not submitted in the requested format.

          c. Develop and implement management control procedures to
formally document the procedures that Defense Finance and Accounting
Service Cleveland Center used to collect, verify, and adjust financial data
obtained from other trading partners.

           d. Establish procedures to randomly test the information
obtained from the sellers for completeness and accuracy to improve the
quality of the information received.

           e. Collect, exchange, and reconcile seller-side and buyer-side
information for all three levels, and disclose reasons for all exceptions in a
note to the financial statements.

         f. Make accounting adjusting entries for both proprietary and
budgetary accounts.

Management Comments. In responding for DFAS, the USD(Comptroller)
stated that DoD is committed to implementing interim policies and procedures to
provide a “meaningful approximation” of intragovernmental transaction amounts
and eliminating entries. The policies will address the existence of audit trails,
data integrity, accuracy, and management controls. However, DFAS still
intends to rely in part on estimates and percentage allocations of summary
balances because of the existing system inadequacies and lack of Government-
wide guidance. The DFAS is also working on standard operating procedures to
enhance its elimination process and implementation strategies to better ensure
that journal vouchers are properly supported and audit trails exist.

Audit Response. We accept the management response that it will issue policies
and procedures to address the need for audit trails, data integrity, accuracy, and
management controls. However, management comments did not state specific



                                    13
actions to be taken in response to Recommendations 2.a. through f. Therefore,
we request that the Director, DFAS, comment on each of the recommendations
in the final report.




                                  14
Appendix A. Audit Process

Scope
    We reviewed the process used to identify and report intragovernmental
    transactions for FY 1999 Navy Working Capital Fund financial statements,
    including the balance sheet, Statement of Net Cost, and Statement of Changes in
    Net Position. Specifically, we reviewed the worksheets that DFAS Cleveland
    Center used to support the reported intragovernmental transactions of
    $21.8 billion.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

               • FY 2001 Corporate-Level Goal 2: Prepare now for an
              uncertain future by pursuing a focused modernization effort that
              maintains U.S. qualitative superiority in key warfighting capabilities.
              Transform the force by exploiting the Revolution in Military Affairs,
              and reengineer the Department to achieve a 21st century
              infrastructure. (01-DoD-2)

               • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)

               • FY 2001 Performance Measure 2.5.1: Reduce the number of
              noncompliant accounting and finance systems. (01-DoD-2.5.1.)

               • FY 2001 Performance Measure 2.5.2: Achieve unqualified
              opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

               • Financial Management Area. Objective: Strengthen internal
              controls. Goal: Improve compliance with the Federal Managers’
              Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.




                                       15
Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the preparation and presentation of intragovernmental eliminating transactions
    for the DoD annual financial statements. We reviewed the DFAS Cleveland
    Center accounting records and journal vouchers, and we held discussions with
    the DFAS Cleveland Center accounting personnel responsible for collecting,
    reviewing, exchanging, and reporting intragovernmental transactions. We
    compared and analyzed the information that DFAS Cleveland Center obtained
    from other trading partners with the information reported in the financial
    statements.

    Use of Computer-Processed Data. We relied on computer-processed data
    from Standard Accounting and Reporting System-Financial and Departmental
    Reporting and Standard Accounting and Reporting System-Field Level, and
    Standard Accounting and Reporting System-Headquarters Command Module to
    conduct the audit at DFAS Cleveland Center. We relied on computer-processed
    data without performing tests of the system’s general and application controls
    because the process for accumulating and reporting intragovernmental
    eliminating transactions at DFAS Cleveland Center is primarily a manual
    process. Not evaluating the controls did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from December 1999 through February 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We included tests of management
    controls considered necessary.

    Contact During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland Center management controls over
    accumulating and reporting intragovernmental transactions that occurred within
    Navy General Fund organizations, the Navy Working Capital Fund, DoD
    Components, and other Federal Government agencies. Specifically, we
    reviewed the procedures and controls that DFAS Cleveland Center used to




                                       16
    collect, review, exchange, and report intragovernmental accounts receivable,
    revenue, and unearned revenue. We reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at DFAS Cleveland Center, as defined by DoD Instruction
    5010.40, “Management Control (MC) Program Procedures,” August 28, 1996.
    The DFAS Cleveland Center management controls over accumulating and
    reporting intragovernmental transactions were not adequate to eliminate the
    effects of intragovernmental accounting transactions that occurred within the
    DoD Working Capital Fund organizations and with other Federal Government
    organizations. Recommendation 2, if implemented, will improve management
    controls over reliability of the intragovernmental eliminating entries reporting.
    A copy of this report will be provided to the senior official responsible for
    management controls in DFAS Cleveland Center.

    Adequacy of Management’s Self-Evaluation. The DFAS Cleveland Center
    did not identify the process for accumulating and reporting intragovernmental
    transactions within its assessable units and, therefore, did not identify or report
    the material management control weaknesses that the audit identified.



Prior Coverage
    The General Accounting Office and the IG, DoD, have conducted multiple
    reviews related to financial statement issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov. IG, DoD, reports can
    be accessed on the Internet at http://www.dodig.osd.mil.




                                         17
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Kansas City Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       19
20
Under Secretary of Defense (Comptroller)
Comments




                   21
22
23
24
Audit Team Members


This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DoD.


  F. Jay Lane
  Salvatore D. Guli
  Brian M. Flynn
  Marvin L. Peek
  Hoa H. Pham
  Gopal K. Jain
  Lukas G. Andreen
  Noelle G. Blank
